AAAAAAAAAAAAAAA




                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Inspections and Special Inquiries




 Inspection Report

 40 MM Grenade Launcher Qualification
 Requirements at Department of Energy
 Sites




 DOE/IG-0806                                 November 2008
                                 Department of Energy
                                     Washington, DC 20585

                                      November 25, 2008


MEMORANDUM FOR

FROM:
                           Inspector General

SUBJECT:                  INFORMATION: Inspection Report on "40 mm Grenade Launcher
                          Qualification Requirements at Department of Energy Sites"

BACKGROUND

The Department of Energy and its National Nuclear Security Administration (NNSA), operate
some of the most sensitive Federal facilities in the United States. Because of the mission
requirements, safeguards and security is a top priority at these sites. As part of its security
regime, the Department maintains a cadre of armed protective force officers to prevent and
defend against malevolent acts. In recent years, the Department has worked to enhance security
by increasing the capabilities of weapon systems used by the protective force officers. One such
weapon is the 40 mm grenade launcher, which utilizes high explosive ammunition to defeat
adversary personnel and equipment. A number of Department sites have procured these
weapons.

Department elements and contractors responsible for security must establish formal training and
qualification programs. These programs ensure that protective force officers are competent to
safely and effectively perform assigned tasks, including defending protected facilities under all
environmental conditions, such as reduced visibility. We initiated this inspection to gain a
broader perspective on Department qualification programs for the use of 40 mm grenade
launchers and to ascertain if the qualification courses were consistent with Department policy.
We inspected six sites, four that report to NNSA and two that report to other Department
organizations. Due to security concerns, the six sites are not specifically identified in this report.

RESULTS OF INSPECTION

During the course of our fieldwork, we concluded that three of the six sites did not conduct
40 mm grenade launcher qualification courses in accordance with Department policy.
Specifically, we found that:

           Despite Department policy requirements, three sites (two NNSA and one non-NNSA)
           had not conducted protective force officer qualification under reduced visibility
           conditions (night qualification) for their 40 mm weapons. The lack of night
           qualification called into question the ability of the protective force officers to
           effectively utilize the 40 mm grenade launcher to protect the site under all
           environmental conditions, as required.




                                    @    P r ~ n r e dw i t h soy ink on recycled papcr
           The three noncompliant sites had not submitted requests for approval of a deviation
           from the Department's officer night qualification requirements, per Department
           policy. Following the prescribed deviation process ensures that appropriate
           compensatory measures are in place to: (i) alleviate security vulnerabilities; and,
           (ii) to meet Department site protection requirements.

The 40 mm grenade launcher is a powerful defensive weapon. Any reductions in the capabilities
of the protective force to make maximum use of the weapon are of concern. As a consequence,
we recommended that personnel qualification requirements for the 40 mm be fully implemented.

MANAGEMENT REACTION

In responding to a draft of this report, management generally concurred with our findings and
identified corrective actions taken or planned to address our recommendations. Management
comments are provided in their entirety in Appendix B of the report.

Attachment

cc:   Acting Deputy Secretary
      Chief of Staff
      Under Secretary for Energy
      Administrator, National Nuclear Security Administration
      Assistant Secretary for Environmental Management
      Assistant Secretary for Nuclear Energy
      Chief Health, Safety and Security Officer
      Director, Policy and Internal Controls Management (NA-66)
      Director, Office of Internal Review (CF- 1.2)
40 MM GRENADE LAUNCHER QUALIFICATION
REQUIREMENTS AT DEPARTMENT OF ENERGY SITES


TABLE OF
CONTENTS



              OVERVIEW

              Introduction and Objective         1

              Observations and Conclusions       2


              DETAILS OF FINDINGS

              Reduced Visibility Qualification   3

              Deviation Process                  4


              RECOMMENDATIONS                    6


              MANAGEMENT COMMENTS                6


              INSPECTOR COMMENTS                 6


              APPENDICES

              A. Scope and Methodology           7

              B. Management Comments             8
Overview

INTRODUCTION    The U.S. Department of Energy (Department), a multi-faceted
AND OBJECTIVE   agency, supports diversified scientific, engineering, environmental
                and national security activities. The National Nuclear Security
                Administration (NNSA), a separately organized agency within the
                Department, supports science and technology and is responsible
                for maintaining the safety, security, reliability and performance of
                the United States' nuclear weapons stockpile.

                Department facilities, including those managed by the NNSA, are
                required to develop and implement protection strategies based
                upon the Department's Design Basis Threat (DBT). The DB'I'
                describes threats that are postulated for the purpose of analyzing
                safeguards and security programs, systems, components,
                equipment, information, or material. In addition, Department
                facilities that maintain special nuclear materials and other items of
                significant national security interest must develop a Site
                Safeguards and Security Plan (SSSP) to describe the physical
                protection programs, evaluate risk, and identify facility targets
                associated with the DBT.

                The nature of this security environment necessitates the
                implementation of formal security programs with increased
                emphasis on the protection of critical assets. To successfully
                defend its sites, the Department maintains a cadre of armed
                protective force officers to prevent and defend against malevolent
                acts. A critical part of the Department's effort to enhance security
                has been to increase the capabilities of weapon systems used by
                officers. One such category of weapon is the 40 mm grenade
                launcher, which utilizes high explosive ammunition to defeat
                adversary personnel and equipment. A number of Department
                sites have procured these weapons.

                In accordance with the Department's safeguards and security
                policy, Department elements and contractors responsible for
                security must establish formal training and qualification programs.
                These programs ensure that officers are competent to safely and
                effectively perform assigned tasks, including defending assigned
                areas under all environmental conditions, such as reduced
                visibility. Department and contractor entities unable to comply
                with safeguards and security regulations are required to follow the
                Department's formal deviation process to correct, alleviate. or
                eliminate the deviant condition. In correcting non-compliant




Page 1                                            40 mm Grenade Launcher
                                                  Qualification Requirements
                                                  at Department of Energy Sites
                   conditions. Department policy also requires departmental elements
                   to monitor compensatory measures, establish schedules of actions
                   needed to correct the non-compliant conditions. ensure that
                   funding is effectively managed to address safeguards and security
                   interests, and monitor compliance with schedules when applicable.

                   In a prior inspection, we found that an NNSA site utilized 40 mm
                   grenade launchers in a manner that was inconsistent with
                   Department policy. Subsequently, we initiated this inspection to
                   gain a broader perspective on Department qualification programs
                   for the use of 40 mm grenade launchers. The objective of this
                   inspection was to ascertain if 40 mm grenade launcher
                   qualification courses at Department sites were conducted in
                   accordance with Department policy. We inspected six sites: four
                   report to NNSA, and two report to other Department organizations.
                   Due to security concerns, the six sites are not specifically
                   identified in this report.

OBSERVATIONS AND   During the course of our fieldwork, we concluded that three of the
CONCLUSIONS        six sites did not conduct 40 mm grenade launcher qualification
                   courses in accordance with Department policy. Specifically, we
                   found that:

                          Despite Department policy requirements, three sites did not
                          conduct protective force officer qualification under reduced
                          visibility conditions (night qualification) for their 40 mm
                          weapons. The lack of night qualification calls into question
                          the ability of the protective force officers to protect the site
                          under all environmental conditions.

                          The three noncompliant sites had not submitted requests for
                          approval of a deviation from the Department's officer
                          qualification requirements, per Department policy.
                          Following the prescribed deviation process ensures that
                          appropriate compensatory measures are in place to alleviate
                          vulnerabilitics and meet Department site protection
                          requirements.




Page 2                                              Observations and Conclusions
Details of Findings

REDUCED VISIBILITY                 We found that three sites (one Department and two NNSA) did not
QUALIFICATION                      conduct protective force officer qualification under reduced
                                   visibility conditions (night qualification) for their 40 mni weapons,
                                   as required by Department policy. Consequently, protective force
                                   officer proficiency with these weapons could not be assured under
                                   all environmental conditions. Table 1 provides a sunimary
                                   regarding 40 mm grenade launcher reduced visibility qualification
                                   at the six sites.


                                            Reduced Visibility Qualification and Deviations for
                                                      40 mm Grenade Launchers
                                   - -         -       -             -



                                                 Year             Year             Night             Deviation
                                     Site      Acquired          ~ielded'       Qualification        Obtained
                                      1          1992             1993              No                  No
                                      2          2006             2006              Yes                N/A
                                      3          2005             2005              No                  No
                                      4          1998             1998              Yes                N/A
                                       5         2006             2007              Yes                NIA
                                                                                                        No
                                                                      Table 1
                                   Department Manual 470.4-3, '-Protective Force," establishes
                                   requirements for weapon qualification to validate user proficiency.
                                   The Manual states that where departmental firearms qualification
                                   courses do not exist or do not cover site-specific deployment of a
                                   weapons system (e.g., grenade launchers), both daylight and
                                   reduced lighting site-specitic supplemental qualification courses
                                   must be developed by the cognizant security authority and
                                   submitted to the Director, Officc of Security Policy (for
                                   Department sites). or the Associate Administrator for Defense
                                   Nuclear Security (for NNSA sites) for review and approval. The
                                   reduced visibility qualification course is required for protective
                                   force officers to demonstrate full capabilities and skill levels under
                                   all environmental conditions. As noted previously, three of the six
                                   sites reviewed did not have reduced visibility qualification courses
                                   for grenade launchers to validate user skills under such conditions.



' We noted that the sites had not conducted night qualification nor had the Department a~~thorized
                                                                                                a deviation from
that requirement since the weapons were fielded.




Page 3                                                                                   Details of Findings
             Officials at the three sites provided us with various reasons why
             their sites were not in compliance with the Department's weapons
             qualification policy. An official at one site said they could not
             qualify during periods of reduced visibility because they did not
             possess appropriate night vision sighting systems, nor did they
             have such systems on order. An official at another site said they
             could not accurately grade a reduced visibility qualification course
             because their grenade launcher range was also an impact range for
             high explosive rounds and they were prohibited from walking out
             to the targets to confirm hits. Additionally, that official stated it
             was too difficult for qualification course graders to use night vision
             devices due to the inability to accurately confirm when targets
             were hit. An official at the third site, which began using grenade
             launchers in June 2006, said they did not currently conduct night
             qualification. but they were in the process of having a proposed
             night qualification course validated.

             We noted that the three sites that were conducting reduced
             visibility training were using innovative methods that potentially
             could be applied to the other sites. One site used the standard iron
             sights that come with the weapons and illuminated the firing range
             with the appropriate candle power as prescribed by the Manual.
             Additionally, the site modified its targets so that the chalk training
             rounds would have a more evident explosion when a round
             impacted the target. The other two sites qualified using a
             combination of electro-optical and iron sight systems aimed at a
             slightly illuminated target.

DEVIA'l7ON   We found that the three sites not conducting reduced visibility
PROCESS      qualification had not submitted requests for deviations from the
             Department's officer qualification requirements, per Department
             policy. Following the prescribed deviation process ensures that
             appropriate compensatory measures are in place to alleviate
             vulnerabilities and meet Department site protection requirements.

             Per Department Manual 470.4-1, "Safeguards and Security
             Program Planning and Management," a formal request for
             deviation must include: 1) a specific description of the deviation
             and the rationale for the deviation request; 2) a description of the
             current measures used for protection and an evaluation of their
             effectiveness; 3) a description of alternate or compensatory
             measures or levels of protection to be provided as an alternative to
             the directive requirements; 4) the expected duration of the
             condition for which the deviation is requested, including
             milestones for correcting, alleviating, or eliminating the deviant
             condition; and 5) an evaluation of risks associated with the



Page 4                                                       Details of Findings
         deviation, if approved. The results of vulnerability analyses and
         performance tests conducted on the proposed alternatives must be
         included as well. Deviation requests must be submitted to the
         Director, Office of Security Policy (for Department sites), or the
         Associate Administrator for Defense Nuclear Security (for NNSA
         sites) for review and approval. Officials at the three sites without
         night qualification courses acknowledged they had not submitted
         the required deviation requests. This was also confirmed by
         Department and NNSA officials responsible for those sites.

         We interviewed a senior Department Headquarters Safeguards and
         Security official regarding the lack of a deviation request for the
         Department site. The official said the site is required by
         Department Order to establish approved day and night
         qualification courses for their weapon systems and that if the site
         were not complying with the Order, they need to follow the
         deviation process.

         We also interviewed a senior NNSA Headquarters Safeguards and
         Security official regarding the NNSA sites. Despite the lack of
         deviation requests, NNSA Headquarters had approved their
         grenade launcher qualification courses without the reduced
         visibility requirement. The official told us it was NNSA's position
         that their approval of the qualification courses without a reduced
         visibility requirement included was "tantamount to approving the
         deviation from policy" for each site. As noted previously, the
         required deviation process includes a rigorous examination of the
         rationale for the deviation; current protection measures;
         compensatory measures to be employed as alternatives; the
         duration of the deviation; and a risk assessment. Approvals of
         deviation requests are to be based on analyses of these factors. We
         could find no evidence that NNSA, in approving the courses in
         what it termed as tantamount to a formal deviation, considered
         such factors with respect to the 40mm grenade launchers. Under
         the circumstances, we cannot be sure that NNSA fully considered
         the security implications of the lack of qualification in a reduced
         visibility environment.

         Subsequent to the completion of our fieldwork, we were advised
         by contractor officials that the Department site and one of the two
         NNSA sites had taken actions to address the lack of night
         qualification. Therefore, our recon~mendationsinclude that the
         Department review these corrective actions for adequacy in
         addressing departmental requirements.




Page 5                                                   Details of Findings
RECOMMENDATIONS   We recommend that the Assistant Secretary for Environmental
                  Management:

                  1 . Ensure the Department site that was not conforming to grenade
                      launcher reduced visibility qualification requirements has takcn
                      corrective actions to comply with applicable Department
                      requirements. If such actions are determined to be incomplete,
                      direct the site to request an appropriate deviation in accordance
                      with Department safeguards and security requirements.

                  We recommend that NNSA's Principal Deputy Administrator:

                  2. Ensure the IVIVSA sites that were not conforming to grenade
                     launcher reduced visibility qualification requiremcnts takc
                     corrective actions to comply with the applicable Department
                     requirements. As an interim measure if corrective actions have
                     not been completed, direct the site(s) to request an appropriate
                     deviation in accordance with Department safeguards and
                     security requirements.

MANAGEMENT        In comments on a draft of this report, the Office of Environmental
COMMENTS          Management agreed that the Environmental Management site
                  addressed in this report had not conducted 40 mm grenade
                  launcher qualification courses consistent with Department policy
                  and stated that the deficiency has since been corrected by
                  implementing an approved course.

                  In its comments, NNSA generally agreed with the report and its
                  recommendations. In a subsequent conversation with a senior
                  NNSA official, the official said that one of the NNSA sites
                  addressed in the report is now in compliance with Department
                  qualification policy, while the other site is in the process of
                  correcting issues related to 40 mm reduced lighting qualification
                  requirements.

INSPECTOR         We found management's comments to be responsive to
COMMENTS          our report recommendations.




Page 6                                                    Recommendations
                                         Management and Inspector Coniments
Appendix A

SCOPE AND     The fieldwork for this inspection was conducted between June
METHODOLOGY   2007 and January 2008. As part of this inspection, we conducted
              interviews, document reviews and analysis that included:

                 10 Code of Federal Regulations, Part 1046, "Physical
                 Protection of Security Interests";

                 DOE Order 470.4, "Safeguards and Security Program";

                 DOE Manual 470.4-3, "Protective Force";

                 DOE Manual (Draft) 470.4-3A, "Contraclor Protective Force";

                 DOE Manual 470.4-1, "Safeguards and Security Program
                 Planning and Management"; and,

                 Grenade launcher qiialification courses for the six sites
                 included in this review.

              This inspection was conducted in accordance with the "Quality
              Standards for Inspections" issued by the President's Council on
              Integrity and Efficiency.




Page 7                                                Scope and Methodology
Appendix B



                                           Department of Energy
                                                            U(- LOStiSI
                                                Wdbhlr~gt~lrl,

                                                  h e p l c n ~ l ~'12.
                                                                     e ~2OUX




         SUIJJLC 1':                   Inspector <;c~ieralI)ralr 1tcpol.t on "30I I I I I I (jl.~'lladt'1,;1~1n~liel.
                                       ()rr:lliiicatio~~             a1 1 Icpartmeli~ol' [incry): Sites"
                                                       Ilcil~~ircmcrlts

         l'he Ot'tice 01' I,;nvirorl~ncnta)h.1~1iage1ncnt (I:.h'l) has reviewed the ddrati rcpori. "40 111111
         (irel~adc1,aunctrcr ()ualiticz~tionJ<eq~~ire~ncnts      a( L I ~ ~ p a ~ l t nofe rICrlzrgy
                                                                                             ~(      Sift.'' by the
         Olliec aflnspzctor (Isrleral. We ayrst. \vith the crhseuvat~onthat 311 I.iRI site iliJ lrill
         conducl 40 nlm grellade qunli ticaticui caurszb consistent wit11 I)cpa~.tmznlalpolicy. 1:I\,1
         Iias cor~-<-cieiitllis dclicizncy by inipleuncrlling tlie course. "30inln Cire~ladeI .auncll~l.
         I     I.igllt ()u:~lificatior~('oursen ulrish was approved 1-IYthc Of'ticc o i l Ieiillh. Salkty
         aid S~x~irity.




Page 8                                                                                             Management Comments
Appendix B (continued)




                                                Department of Energy
                                          Nrtional Nuclear Security Administrallon
                                                   Wasti~ngtori0(: :!0!1h5
                                                       October 2.7-008



         hli-M( ) K A NIIIJM F01(:              (.'Iiristophcr L<. SI1iirple)i
                                                l>cl'llty I I ~ S ~ L " L 'Ger1craI
                                                                           ~VI.
                                                    for Investigatwrls and Inspection:;




                                                 (:ommenls to DraIi Inspection liepork or1 3Onini
                                                 (irenade I;~u~rcl~cr
                                                                   (Jualification; J o b (3otle
                                                 S071S033; IDRMS N o . ?008--O'2740


          I'lic N;ltlorlal Nuclca~Security Adnlilrisl~.ation(NNSA) appreciates the oppi!~iunityto
         ICVICW         tllc 1111;pc~Lt)r       ( ie11er:11's (ICr) draf report. 4 0 Alhl G ' r ~ ~ l n d  f.c~irncl~o~
                                                                                                             e         Q~iol{fic~zlio~i
         ICt.~l"ir-c.,,re,lr.,.iiir~t.s c ~ I)V[IUI.III~L.~~~
                                            r              ( ! f ' E n e r . ~Sites. \Ire understand tlrat d ~ i sir~spectionwas
         llri~ii~tctf       in i,ltier Col tile 1i.i to gain a broatlcr perspective on qualitication programs t t ~ r
         the use ot 40~11111                 grenade laln~cllersand to ascc~tainif the qual~ficationcourses were
         co~iducrcdin at:~ortlanccwith pohiy.

         l'11e NNSA gcner:rlly agrces with thc report anti its reco~rl~r~endations.         '10 kllat elltl, we
         ofrel- lhc l b l i t ~ w i ~colnlnenls
                                      ~y        us tileg rclatc to the repori in general and to the
         reco~rl~nendation       directed towards N N S A ' s I'rincipal Ileputy Adlninistrator.

         During tllc 1)eriod ot'the f'icld work f i ~ this
                                                         r irlspccrion and as noteti in the repoi-t; three
         NNSA sltes wc1.c Ihllrld to be not firily cclnlpliant with policies reql~iringgrenade
         laullcl~crq~ralit'icirtic~n   progranls "u~ltierall cnvil-onmcrltal corlditions. such 21s sctluccd
         v~slliiliiy." Sillce the time that tile T i ; contll~utcdits fieltl work., olre oi'ol~rsites has
         e l i ~ ~ r i ~ ~the
                           a t c40r11n1
                                 d    yr-euade launclrer tiorn its prt~tectronstrategy, and tlre otber twct
         l u r e rel3laccd dxir night lirr~iliarizatiarlcourses with qualitication coirrses that iricluch: a
         sct,rctl colllpollellL f i retlucetf
                                        ~       lighting conditiolls. All NNSA fixcd sites t l ~ i ~usc
                                                                                                      l IOnlrn
         grcrlatle lal~llcllerslow have approved qualification courses ibr both d y ant1 low lighl
         cor~d~li~~rls.

         A s t l ~ edraft I('; rcpol-t points out, there a x no I)eparl~ner~tal
                                                                             clrtcria specific LC.) gl-er~adc
         laullcber qualificatioli courscs. 'I'his lack of guidance reilnireil our sites to develop ~ I I C
         caul-ses basc~iOII the iiltendcd site-spccilit: application of the wcapolls systcrn, rclyi~lg
         Ilcavrly I B I I lilllitary doctl.inc arid resitlcilt sut~jecinlattcr expertise. We also CIICOLII-age
         i~uer-sitecvllaboratioi~wllcn establisllirlg n~ln-sri~ndard           weapons trainillg a ~ l d




Page 9                                                                                                       Management Comments
 Appendix B (continued)




          il~jalific;itio~~s            ti~erctore,this issue - as well as oll~crs- will Oe tliscc~ssedin an
                           stiu~~.lar.~ls;
          ul.,corning I'rr>teL:tive Iyorce Firearins Working (3roi.1[1meeting ill ordor t o cletel.minc l.)cst
          1,r~cticcsd n ~esralilisl~
                           l          comruorialit)~.

          'rile hNSA I,clicvss tllat we have already ulel the intelllion of ~ l l erecc~milietidation.
          Sl)c,t~ldyou trnvu any clueitions ahoat this resi>onse,plcase co~lt~lct    Riellard Speitlel,
           I)irccttir, I14)lrcy ant1 Inkenlal C:onlrols blallagetrlcnt at 202-586--500').




Page 10                                                                                          Management Corr~ments
                                                                    IG Report No. DOEIIG-0806

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling. scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to tindings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format. stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of lnspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Ms. Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy .gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
